Memorandum from the Office of the Inspector General



April 19, 2007

Kathryn J. Jackson, WT 11A-K

FINAL REPORT – INSPECTION 2006-521I – SECTION 26a REQUIREMENTS



Attached is the subject final report for your review. As discussed with you on April 9,
2007, the subject report is being issued in presentation format. We have incorporated
your informal comments to the proposed report. Please advise us of your planned
actions in response to our findings within 60 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please
advise us of any sensitive information in this report that you recommend be
withheld.

If you have any questions, please contact Michael A. Driver, Project Manager, at
(423) 751-8158 or Gregory C. Jaynes, Deputy Assistant Inspector General,
Inspections, at (423) 751-7821. We appreciate the courtesy and cooperation
received from your staff during this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

GCJ:BKA
Attachment
cc (Attachment):
     Bridgette K. Ellis, WT 11B-K
     Nancy R. Greer, WT 11B-K
     Peyton T. Hairston, Jr., WT 7B-K
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     OIG File No. 2006-521I
Section 26a Requirements

        2006-521I
       April 19, 2007
Agenda
     Summary

     Background

     Objectives and Scope

     Methodology

     Finding 1 – Adequacy of River System Operations & Environment (RSO&E)
      Guidelines

     Finding 2 – Adherence to RSO&E Guidelines

     Recommendations




                                                                              2
Summary

  We found:
     RSO&E has implemented permitting guidelines which, if followed, should ensure (1) that
      Tennessee Valley Authority (TVA) regulations (18 CFR Part 1304) pertaining to Section 26a
      of the TVA Act are followed and (2) consistent review and approval of Section 26a
      applications. However, documentation requirements supporting permitting decisions could
      be improved.
     That 37 of the 101 Reservoir Land Records (RSLR) reviewed had varying noncompliance
      issues and an additional 15 had RSLR data entry issues.




                                                                                           3
Background

     TVA regulations (18 CFR Part 1304) related to Section 26a of the TVA Act of 1933
      (Section 26a) require that TVA's approval be obtained prior to the construction,
      operation, or maintenance of any dam, appurtenant works, or other obstruction
      affecting navigation, flood control, or public land or reservations along or in the
      Tennessee River or any of its tributaries.
        –   Such obstructions may include boat docks, piers, boathouses, buoys, floats, boat launching
            ramps, fills, water intakes, devices for discharging effluent, bridges, aerial cables, culverts,
            pipelines, fish attractors, shoreline stabilization projects, channel excavations, and
            nonnavigable houseboats.
     TVA Environmental Stewardship and Policy (ES&P), RSO&E, issues permits pursuant
      to 18 CFR Part 1304 and has established guidelines for issuance of such permits.
     ES&P guidelines, which are designed to ensure the regulations are met, require that
      certain information be obtained in the permitting decision process. Information which
      may be required includes:
        –   Completed application with a project description
        –   Project plan/drawing
        –   Site photograph
        –   Location map
        –   Environmental consultations and permits
        –   Site plans
        –   Discharge certifications



                                                                                                               4
Background (continued)

     Information is maintained in (1) paper files kept by the RSO&E watershed teams and
      (2) RSO&E's Automated Land Information System (ALIS). ALIS stores information related
      to the 26a applications/permits per an RSLR.
     RSLRs are classified based on the application purpose as either:
       – Public – requests from agency and non-profit organizations.
       – Private – requests from individual or private owners.
       – Commercial – requests from for-profit entities.
       – Industrial – requests from entities producing goods.




                                                                                              5
Objectives and Scope

   Objectives:
   Determine whether RSO&E permitting policies and procedures (1) ensure reviews and
   approvals are conducted consistently and in accordance with applicable requirements and
   (2) are being followed.


   Scope:
   Our review included RSLRs established in ALIS during the period October 1, 2004, through
   July 31, 2006.




                                                                                              6
Methodology

  Methodology:
  To achieve our objectives, we:
   Gained an understanding of the Section 26a permitting process by:
         – Reviewing Section 26a, 18 CFR Part 1304, and RSO&E guidelines.
         – Interviewing ES&P personnel.
   Conducted a walkdown of the permitting process with ES&P personnel to determine (1) whether the
    actual process and key control activities mirror those outlined in the guidelines and (2) if any additional
    control activities or mitigating controls exist.
   Used information obtained in the walkdown and review of RSO&E guidelines to assess whether the
    prescribed processes and documentation requirements ensure consistent decisions.
   Selected a judgmental sample from the 5,292 RSLRs established in ALIS during our review period to
    assess compliance with TVA regulations and RSO&E guidelines. The population and number selected
    from each classification are described in the following table.


                                                                                               No Stated
                         Private         Public           Industrial       Commercial
                                                                                               Purpose


          Population      4,316           687                26                115               148
           Sample          51              20                 5                10                 15




                                                                                                                  7
Methodology (continued)

    –   For the 101 RSLRs selected, we reviewed supporting documentation to determine:
             If the applications were completed in accordance with the RSO&E, Section 26a Entry Process
              Guideline. Specifically, the application must:
                 – Include a proposal drawing.
                 – Be signed by the applicant.
                 – State the appropriate fee.
                           We also reviewed the fee amount to determine if the correct fees were applied.
                 – Include maps of the proposed location.
             If field reviews were conducted/documented as required by the guidelines. The need for a field
              review is governed by criteria identified in the Section 26a Residential Permitting Process
              Guideline; or the Section 26a Environmental and Programmatic Review Process Guideline.
             If Environmental Reviews were conducted as required by the guidelines.
             If modifications to plans were included/documented as required by the guidelines.




                                                                                                             8
Finding 1 – Adequacy of RSO&E
Guidelines
     We found that RSO&E guidelines, if followed, should ensure (1) the application review and
      approval processes conducted by the watershed teams are consistent and (2) compliance
      with applicable requirements.
     However, the guideline documentation requirements which support permitting decisions
      could be improved.
          –    All applications, regardless of purpose, begin with the Section 26a Entry Process. Then, based on
               the level of environmental review required, either Section 26a Residential Permitting or Section 26a
               Environmental and Programmatic Review Process is followed. RSO&E guidelines identify specific
               process steps to be conducted in the:
                     Section 26a Entry Process
                          – Preliminary review of 26a applications and approval of administrative transfers of
                            ownership
                     Section 26a Residential Permitting Process
                          – Review and approval or denial of all on-reservoir, residential, Category I, and Category II
                            permit applications1
                     Section 26a Environmental and Programmatic Review
                          – Review of all applications requiring the completion of Categorical Exclusion Checklist or
                            other project-specific environmental documentation (EA/EIS)
      1   Examples of Category I and Category II items include docks, piers, non-navigable houseboats, boat launching ramps, and land-
          based shelters for storage of recreational watercraft boats and accessories. Examples of Category III items include fills greater
          than 10 cubic yards, excavations for channels and harbors greater than 150 cubic yards, and any action not listed as a
          Category I or Category II.



                                                                                                                                        9
Finding 1 – Adequacy of RSO&E
Guidelines (continued)
       –    The processes require the employee processing the application to follow TVA
            regulations in determining the size, floatation, electrical cutoff, etc., for submitted
            applications.
       –    Opportunities for improvement in documentation of ES&P Section 26a reviews and
            decisions include:
                  The Residential Permitting Process and Environmental and Programmatic Review Process
                   require that documentation be scanned and attached to the RSLR which is created to track the
                   applications/permits in ALIS. However:
                      – The Residential Permitting Process does not require the Field Inspection Checklist (FIC)2
                          to be scanned and attached to the RSLR in ALIS, whereas the Environmental and
                          Programmatic Review does require the attachment.
                               While there is little difference between an FIC, which is currently required by the
                                  guidelines, and SIC, we found that the SIC is currently being used.
                      – Neither the Residential Permitting Process nor the Environmental and Programmatic
                          Review Process require the approval/permit or the conditions to be scanned and
                          attached to the RSLR.
                      – There is no process in place requiring the Letter of No Objection, which states that the
                          activities requested within or along the Tennessee River or its tributaries do not
                          constitute construction of an obstruction, to be attached to the RSLR.
                  The Residential Permitting Process and Environmental and Programmatic Review Process do
                   not require documentation supporting why a field review is not needed.

   2   The FIC/Site Information Checklist (SIC) is used as an Environmental Review to analyze the site compatibility, navigation
       restrictions, and location of the site requested for a 26a permit.



                                                                                                                                   10
Finding 1 – Adequacy of RSO&E
Guidelines (continued)
                     The processes do not require any documentation to show that the issuance of a
                      Shoreline Management Policy3 (SMP) waiver is appropriate. This waiver allows
                      the land in question not to conform to the standards established in the SMP.


        ES&P management that assisted in our review generally agreed with
         our observations.


      Additional Information:
   The fee structure for submitting an application is to be set pursuant to 18 CFR
   1310.3 at a rate to recover TVA's administrative costs but does not appear to
    have been revised since 1998. In our opinion, RSO&E management should
    periodically review the fee structure to ensure proper cost recovery.

   3   The SMP, which was issued in 1999, is used to establish a Valley-wide policy that would improve the protection of shoreline and
       aquatic resources while allowing reasonable access to the water.




                                                                                                                                    11
Finding 2 – Adherence to RSO&E
Guidelines
     We found that 37 of the 101 RSLR reviewed had varying noncompliance
      issues. The noncompliance issues were as follows:
                         Control Test                                              Test Results
      Determine if supporting documentation was              •   Two RSLRs had no documentation in ALIS, and one
      maintained in ALIS and hard copy file as required by       of these permits had only partial, required
      the Environmental and Programmatic Review                  documentation in the hard copy file.
      Process. Supporting documentation required by the
      process includes a completed application, drawings,    •   Five RSLRs lacked the application, drawings, and/or
      and maps.                                                  maps in the hard copy file. One permit did not have
                                                                 the application in ALIS.

                                                             •   Four RSLRs had no documentation but, according to
                                                                 ES&P, were incorrectly entered as new permits when
                                                                 they should have been addendums to existing
                                                                 permits. ES&P stated that ALIS would be updated to
                                                                 accurately reflect them as addendums.


      Determine if the FIC/SIC was in ALIS and the hard      •   Twenty-five RSLRs did not have the FIC/SIC attached
      copy file as required by the Environmental and             in ALIS or included in the hard copy file.
      Programmatic Review Process.
                                                             •   One RSLR had the FIC/SIC attached in ALIS but not
                                                                 included in the hard copy file.

                                                             •   Six RSLRs did not have the FIC/SIC attached in ALIS.


                                                                                                                        12
Finding 2 – Adherence to RSO&E
Guidelines (continued)
                       Control Test                                          Test Results

   Determine if an Environmental Review was            We found no documentation indicating that an
   conducted. According to TVA management, an          Environmental Review was conducted for two of the
   Environmental Review is always required when TVA    RSLRs requiring such a review.
   takes a permitting action.
   Determine if modifications were made to the plans   No modified plans were found for one RSLR as required
   where required by the FIC/SIC.                      by the FIC/SIC.
   Determine if the correct fee was applied.           Six RSLRs had an incorrect fee listed.




   Additional Information:
   Our review found that in the sample population of 5,292 RSLRs, there were 148
   with no purpose listed. Of the 148 RSLRs, 15 were included in our sample.




                                                                                                               13
Recommendations

  The Executive Vice President of RSO&E should consider:
     Requiring the employee processing the application to scan and attach to the RSLR all of the
      original documents kept on file.
     Revising the guidelines to require (1) consistent use of either the FIC or the SIC and
      (2) documented justification for not conducting a field review.
     Requiring documentation to support any SMP waiver.
     Providing additional training to the applicable personnel on the processes and procedures.


  ES&P management that assisted in our review advised that they plan to "Initiate a
  PER, in accordance with the Corrective Action Program to identify probable
  solutions, such as:
      –   Revised guidelines to clarify proper record management and SMP waiver documentation.
      –   Refresher training on processing Section 26a applications.
      –   Enhancement of Section 26a electronic data system.”




                                                                                                 14
